No.

^o-15o^

Supreme Court, U.S.
FILED

FEB 2 3 2021

3fn rtje

OFFICE OF THE CLFRK

Supreme Court of tfje fMntteb States;
PAMELA M. TIMBES,
Petitioner,
vs.
DEUTSCHE BANK NATIONAL TRUST COMPANY,
As Indenture Trustee,

Respondent.

On Petition for Writ of Certiorari to the Supreme Court of Georgia
PETITION FOR WRIT OF CERTIORARI

PAMELA M. TIMBES
304 Carnoustie
St. Simons Island, GA 31522
(912) 222-6773
ptimbes@gmail.com

Petitioner Pro Se

I.

QUESTIONS PRESENTED FOR REVIEW
Circumvention of a full and fair trial on the merits, and then routine, arbitrary

denial of appeal without reason under the guise of discretionary appeal,1 squarely
conflicts with the United States Constitution and precedents of this Court2 and those
of the Supreme Court of Georgia. Furthermore, vastly different legal standards exist
with regard to requirement of proof of a real party in interest with Article III standing
of alleging Creditors, who routinely file false documents in public records for the
purpose of taking property. Instead of applying the established requirements of law
and procedure strictly against the same entities that have been repeatedly cited for
FRAUD AND NON COMPLIANCE by government and lawsuits from investors,
insurers and guarantors, the courts have applied liberal standards and circumvention
to allow foreclosure and eviction to proceed. Yet, Debtors are deemed not to have
standing to challenge an Assignment of their mortgage, even when fraud is
documented.3
1. Whether the stated claims for relief of this Case arising directly under the

See App. K: Over 100 Orders in the Georgia Court of Appeals, just in 2020, denying
discretionary appeals without reason and using the identical language used in the denial of
Timbes’ discretionary appeal, App. D. Note, specifically, that on June 19, 2020, A20D0391,
another Application to appeal was denied involving Deutsche Bank, as Appellee. Because in
each there is no opinion, there is no way to determine whether the “decision was reached for an
impermissible reason or for no reason at all.” Dunlop, 421 U.S. at 573, 95 S.Ct. 1851 (1975).
See e.g., Lindsey et al v. Normet et al, 405 U.S. 56, 77 (1972), 92 S. Ct. 862.
See e.g., Haynes v. McCalla Raymer, LLC, 793 F.3d 1246, 1251 (11th Cir. 2015).
1

due process clause of the Fourteenth Amendment of the United States Constitution
can be circumvented by unconstitutional departures from established law and
procedures?
A. Whether or not the State of Georgia has abridged Timbes’ privileges or
immunities by making and/or enforcing the Discretionary Appeal Process under
O.C.G.A. § 5-6-35, which has allowed arbitrary denial of appeal without reason?
B. Whether Timbes’ having been deprived of her property without due
process of law, and having been denied equal protection of the laws, is a violation
the Fourteenth Amendment to the United States Constitution, Section 1?
2. Whether alleging creditors with no proven ownership in the subject
property have Article III standing to have brought a dispossessory action and/or to
have moved for Summary Judgment and/or to have moved to dismiss Timbes’
Counterclaim, which lawsuit challenges a state-regulated, non-judicial foreclosure
as void for violation of Georgia law requiring that a valid assignment be filed prior
to foreclosure, and/or for mortgage fraud under the Georgia RICO Act, and/or for
violation of the Trust’s PSA?

u

II.

THE PARTIES
Petitioner is Pamela M. Timbes, citizen and resident of Glynn County,

Georgia.
Respondent is Deutsche Bank National Trust Company, as Indenture Trustee4,
having its principal place of business at 1761 East St. Andrew Place, Santa Ana, GA
92705. Deutsche Bank National Trust Company is owned by Deutsche Bank Trust
Corporation, which is owned by Deutsche Bank Holdings, Inc, which is owned
Deutsche Bank Trust Corporation, which is owned by Taunus Corporation, which is
owned by Deutsche Bank AG, a banking corporation organized under the laws of
the Federal Republic of Germany.

4
“Deutsche Bank National Trust Company as Indenture Trustee”, Respondent, brought the
present action to evict and was granted a writ of possession with no proof in the record that
Pamela Timbes’ mortgage is in the American Home Mortgage Investment Trust 2005-3, or any
trust (explaining Respondent’s current nomenclature as “Trustee”, excluding which trust).
There is absolutely no proof of ownership in the record. The sole document on which
Respondent relies is a purported assignment from "MERS as nominee for the lender, its
successors and assigns", which Timbes’ contends is void, because the assignor, American Home
Mortgage, did not exist when the document was signed by robo signers who were never agents
of MERS.
Ill

III.

TABLE OF CONTENTS

I.

QUESTIONS PRESENTED FOR REVIEW

II.

THE PARTIES

111

III.

TABLE OF CONTENTS

IV

IV.

INDEX OF APPENDICES

vi

V.

TABLE OF AUTHORITIES

VI.

OPINIONS BELOW

1

VII.

JURISDICTION

1

l

Vll

VIII. CONSTITUTIONAL PROVISIONS INVOLVED

2

IX.

STATEMENT OF THE CASE

2

X.

REASONS FOR GRANTING THE PETITION
FOR WRIT OF CERTIORARI............. ............

6

1. The Stated Claims for Relief of This Case Arising
Directly Under the Due Process Clause of the
Fourteenth Amendment of the United States
Constitution Cannot Be Circumvented by
Unconstitutional Departures from Established
Law and Procedures...................................................

6

Arbitrary Denial of Appeal is an Offense to
Fourteenth Amendment Due Process.........

7

Circumventing a Hearing on the Merits of the Case
is an Offense to Fourteenth Amendment Due Process

10

Pro Se Litigants Have a Constitutional Right to Have Their Claims
Adjudicated and to Submit Evidence in Support of Their Claims...

24

IV

XI.

2. Lack of Article III Standing of Respondent to Demand
Possession of the Subject Property, to Move for
Summary Judgment and to Move to Dismiss the
Counterclaim.......................................................................

25

The Counterclaim Cannot be Barred by Res Judicata and/or
Collateral Estoppel................................................................

29

An Appropriate Disposition in This Case would be to Remand to the
Supreme Court of Georgia for Further Consideration........................

39

CONCLUSION

40

v

rv.

INDEX OF APPENDICES

Appendix A:
Appendix B:
Appendix C:
Appendix D:
Appendix E:
Appendix F:

Appendix G:

Order, In the Supreme Court of Georgia,
No. S20C0938 (September 8, 2020)......

a-1

Order, In the Supreme Court of Georgia,
No. S20C0938 (September 28, 2020)....

a-3

Order, In the Supreme Court of Georgia,
No. S20C0938 (September 28, 2020)....

a-5

Order, In the Court of Appeals of Georgia,
No. A20D0280 (February 12, 2020).........

a-7

Order, In the Superior Court of Glynn County,
State of Georgia, No. CE19-00763 (January 14, 2020)

a-9

Notice of Appeal to Superior Court of Glynn County,
In the Magistrate Court of Glynn County,
State of Georgia, No. 1800416 (May 28, 2019).........

a-13

Order, In the Magistrate Court of Glynn County,
State of Georgia, No.1800416 (June 3, 2019)....

a-15

Appendix H:

Affidavit of Pamela M. Timbes
In the Superior Court of Glynn County,
State of Georgia, No. CE19-00763 (October 17,2019)...... a-17

Appendix I:

Assignment of Security Deed
Clerk of Superior Court, Glynn County, GA
(December 2, 2010)...................................

a-31

Deed Under Power
Clerk of Superior Court, Glynn County, GA
(March 24, 2016).......................................

a-34

Orders Denying Discretionary Appeals
In the Court of Appeals of Georgia
(January, 2020 to December, 2020).....

a-3 8

Appendix J:

Appendix K:

vi

V.

TABLE OF AUTHORITIES

CASES
Abbate v. United States,
359 U.S. 187(1959)

32

Abushmais et al. v. Erby,
No. S07G0372, October 2007

12

American Home Mortgage Servicing, Inc. v. Lender Processing Services, Inc.,
11-10440, District Court of Dallas County, TX (2011)......................... 30
American Surety Co. v. Baldwin,
287 U.S. 156(1932).................

10

Ames v. JP Morgan Chase Bank, N.A.,
783 S.E. 2d 614 (Ga. 2016)......

21,23

Anastasoffv. United States,
223 F.3d 898 (8th Cir. 2000)

24

Anderson v. Poythress,
(246 Ga. 435)(271 SE2d 834)(1980)

26

Arbaugh v.Y&HCorp.,
546 U.S. 500, (2006)

13, 36, 37

Avren v. Garten,
289 Ga. 186 (710 SE2d 130) (2011)

12

Bennett v. Spear,
520 U.S. 154(1997)..................... .

26

Bennett v. Wilson,
122 Cal. 509 (1898)

38

Brown v. Felsen,
442 U.S. 127 (1979)

25
Vll

Caritativo v. California,
357 U.S. 549 (1958)

6

Chambers v. NASCO, Inc.,
501 U.S. 32 (1991).

30,31

Coppedge v. United States,
369 U.S. 438(1962).

7

Crymes v. Crymes,
148 Ga.App. 299 (2) (251 S.E.2d 155)

20

Davis v. Fed. Election Comm ’n,
544 U.S. 724 (Fed. R. Civ. P. 12(h))

26

Deutsche Bank Nat’l Trust Co. v. Burke,
117F. Supp 3d 953 (2015)..........

19

D ’Lil v. Best Western Encina Lodge & Suites,
538 F.3d 1031 (9th Cir. 2008)..............

35

Dunlop,
421 U.S. at 573, 95 S.Ct. 1851 (1975)

8

Egana v. HSBC Mortg. Corp.,
669 S.E.2d 159, (Ga. Ct. App. 2008)

17

Ellis v. United States,
356 U.S. 674 (1958)

7

Gardner v. California,
393 U.S. 367 (1969)

7

Gold Creek SL v. City ofDawsonville,
290 Ga.App. 807, 660 S.E.2d 858 (2008)

25

Gorman v. University ofRhode Island,
837 F.2d 7 (1st Cir. 1988).........

6

vm

Griffin v. Illinois,
351 U.S. 12(1956)

7

Haines v Kerner,
404 U.S. 519 (1972)

24

Hazel-Atlas Glass Co. v. Hartford-Empire Co.,
322 U.S. 238 (1944)............................
Haynes v. McCalla Raymer, LLC,
793 F.3d 1246(11th Cir. 2015)

30,31
i, 22

Heath v. Alabama,
474 U.S. 82(1985)

32

Hill v. Levenson,
259 Ga. 395 (1) (383 S.E.2d 110)

11, 19, 28

Ins. Corp. ofIreland, Ltd. v. Compagnie des Bauxites de Guinee,
456 U.S. 694 (1982)........................................................

36

Jackson v. Gamble,
232 Ga. 149, 152,205 S.E.2d 256 (1974)

13

Johnson v. Waters,
111 U.S. 640,28 L. Ed. 547, 4 S. Ct. 619 (1884)

30

Johnson v. Zerbst,
304 U.S. 458 SCt.1019 (1938)

21

Jordon v. Gilligan, 500 F.2d 701 (6th Cir. 1974)

37

Kimsey v. Rogers,
166 Ga. 176 (142 SE 667) (1928)

26

Kirkman V. Gillespie,
113 Ga 507 (37 S.E. 714)

13

Kokkonenv. Guardian Life Ins. Co. ofAm.,
511 U.S. 375(1994).......................

35

IX

Kontrick v. Ryan,
540 U.S. 443 (2004)

13,37

Koon v. United States,
518 U.S. 81 (1996)

9

Lane v. Brown,
372 U.S. All (1963)

7

Lewis v. Manufacturers National Bank ofDetroit,
364 U.S. 603, 81 S.Ct. 347, 5 L.Ed.2d 323 (1961)
Lindsey et al. v. Normet et al,
405 U.S. 56 (1972), 92 S. Ct. 862

23, 33

i, 7

Long v. District Court ofIowa,
385 U.S. 192 (1966).....

7

Longv. Greenwood Homes,
285 Ga. 560, 679 S.E.2d 712 (2009)
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992).....

39
26, 34

Marshall v. Holmes,
141 U.S. 589(1891)

30

Marshall v. Jerrico,
100 S.Ct. 1610,446 U.S. 238

21

McBurrough v. Dept, ofHuman Resources,
150 Ga. App. 130 (3) (257 SE2d 35) (1979)

21

McDaniel v. Selman,
75 Ga. App. 119(1947)

13

McNutt v. Gen. Motors Acceptance Corp. oflnd., Inc.,
298 U.S. 178(1936)........................................

35

x

Medina v. Clinton,
86 F.3d 155 (9th Cir. 1996)

35

Metro Atlanta Task Force for the Homeless, Inc. v. Premium Funding
Solutions, LLC, 321 Ga App 100 (2013)....................................

10,28

In re Murchinson,
349 U.S. 133 (1955)

21

Neely v. City of Riverdale,
298 Ga. App. 884 (2009)

34

Newman v. Ormond,
456 F. App’x 866 (11th Cir. 2012)

39

Nickey v. Mississippi,
292 U.S. 393 (1934)

10

Oldfield v. Pueblo De Bahia Lora, S.A.,
558 F.3d 1210 (11th Cir. 2009)...

38

Owen Equip. & Erection Co. v. Kroger,
437 U.S. 365 (1978)....................

35

Painter v. Liverpool Oil Gas Light Co.,
1 Eng. Rep. 478, 3 Adm. & Eccl. 433, 448-49 (K.B. 1836)

6

Patrick v. Cobb,
49 S.E. 806 (Ga. 1905)

17

Payne v. Tennessee,
501 U.S. 808 (1991)

24

Platsky v. C.I.A.,
953 F.2d. 26 (2d Cir. 1991)

24

Rice v. Ford Motor Co.,
88 F.3d 914 (11th Cir. 1996)

37

xi

Ruhgras A.G. v. Marathon Oil Co.,
526 U.S. 574(1999)...........

35

Sabariego v Maverick,
124 US 261, 31 L Ed 430, 8 S Ct 461 (1888)

21

Sanders v. Hughes,
359 S.E.2d 396 (Ga. Ct. App. 1987)

17

Sawnee Forest, LLC v. CRE Venture 2011-1, LLC,
339 Ga. App. 339, 341 (2) (793 SE2d 542) (2016)

15

Sherman v. Thomas-Lane American Legion Post 597,
330 Ga. App. 618 (1) (768 SE2d797) (2015)...

15

Skelton v. Hill Aircraft & Leasing Corp.,
175 Ga. App. 144 (333 SE2dl4) (1985)
Smith v. Bennett,
365 U.S. 708 (1961)

10, 27
7

Stamey v. Hill,
114 Ga 154 (39 S.E. 949)(1901)

13

Steed v. Fed. Nat. Mtg. Corp.,
301 Ga. App. 801 (1) (a) (689 SE2d 843)(2009)

10, 27, 28

Suarez v. Halbert,
246 Ga. App. 822 (2000)

10

Textile Banking Company, Inc. v. Rentschler,
657 F.2d 844 (7th Cir. 1981)..............

37

Thomas v. Wells Fargo Credit Corp.,
200 Ga.App. 592(3), 409 S.E.2d 71 (1991)
Tomlin v McDaniel,
865 F.2d 209 (9th Cir. 1987)

17, 19, 28
37

Xll

Truax v. Corrigan,
257 U.S. 312 (1921)

7

United States v. International Business Machines Corp.,
517 U.S. 843 (1996)...........................................

24

Universal Oil Products Co. v. Root Refining Co.,
328 U.S. 575(1946)................................

30

Warth v. Seldin,
422 U.S. 490 (1975)

26

Watts v. Pinckney,
752 F.2d 406 (9th Cir. 1985)

37

Wells Fargo Bank, N.A. v. Erobobo, et ah,
2013 WL1831799 (N.Y.Sup.Ct. April 29, 2013)

16

Wilbanks v. Arthur,
570 S.E.2d 664 (Ga. Ct. App. 2002)

17

Willy v. Coastal Corp.,
503 U.S. 131 (1992)

24

CONSTITUTION
U.S. Const. Article III, section 2...
U.S. Const. Amend. XIV, section 1

.passim
.passim

Georgia State Const. ARTICLE I. SECTION I. PARAGRAPH I..
Georgia State Const. ARTICLE I. SECTION I. PARAGRAPH II..
Georgia State Const. ARTICLE I. SECTION I. PARAGRAPH IX
Georgia State Const. ARTICLE VI. SECTION V........................
Georgia State Const. ARTICLE VI. SECTION VI.......................

20
20

11
8
8

STATUTES
28U.S.C. §1254(1)
28U.S.C. §2106....

1
39
XUl

O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.
O.C.G.A.

§ 5-3-30..........
§ 5-6-30..........
§ 5-6-34..........
§ 5-6-35..........
§ 5-6-35(j)......
§ 5-6-45..........
§ 5-6-46..........
§9-11-12.......
§9-1 l-12(h)(3)
§9-11-43.......
§9-11-56.......
§ 9-12-16.......
§ 15-10-41......
§ 16-8-102(1)..
§ 16-8-102(2)..
§ 16-8-102(4)..
§ 16-8-102(5)..
§ 44-7-50.......
§ 44-14-162(b).
§51-6-1..........

11
8
9
.passim
...9, 19
12
12
20

13, 36
10
15
21
31
31
31
31
31
.10, 17, 27
21,23,34
.16, 29, 39

RULES
Fed. R. Civ. P. 12(h)(3)

36

OTHER
GEORGIA LAW, 2008, p. 624, § 1

,22

Ruskell, Davis and Shulman's Ga. Practice and Procedure
§ 9:3, p. 464 (2007 ed.)........................................

13

xiv

VI.

OPINIONS BELOW
The unpublished Order of the Supreme Court of Georgia, No. S20C0938,

denying the petition for certiorari, was filed on September 8, 2020. [App. A]
The unpublished Order of the Supreme Court of Georgia, No. S20C0938,
denying the Motion for Reconsideration, was filed on September 28, 2020.[App.B]
The unpublished Order of the Supreme Court of Georgia, No. S20C0938,
denying the Motion to Stay, was filed on September 28, 2020. [App. C]
The unpublished Order of the Court of Appeals of Georgia, No. A20D0280,
denying the Application for Discretionary Appeal, (February 12. 2020). [App. D]
The unpublished Order of the Superior Court of Glynn County, State of
Georgia, No. CE19-00763, granting Deutsche Bank National Trust Company as
Indenture Trustee’s Motion for Summary Judgment, (January 14, 2020). [App. E]
The unpublished Order of the Magistrate Court of Glynn County, State of
Georgia, No. 1800416, granting possession of the subject property to Deutsche Bank
National Trust Company, (June 3, 2019). [App. G]
VII. JURISDICTION
The Supreme Court of Georgia entered its order denying certiorari on
September 8,2020, App. A. Motion for Reconsideration was denied on September
28, 2020, App. B. The jurisdiction of the Court is invoked under
28 U.S.C. Section 1254(1) and under Article III of the United States Constitution.
1

Vm. CONSTITUTIONAL PROVISIONS INVOLVED
Amendment XIV, section 1:
All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
U.S. Const. Art. Ill, section 2:
The judicial Power shall extend to all Cases, in Law and Equity, arising under this
Constitution, the Laws of the United States, and Treaties made, or which shall be
made, under their Authority; to all Cases affecting Ambassadors, other public
Ministers and Consuls; to all Cases of admiralty and maritime Jurisdiction; to
Controversies to which the United States shall be a Party; to Controversies between
two or more States; between a State and Citizens of another State; between Citizens
of different States; between Citizens of the same State claiming Lands under Grants
of different States, and between a State, or the Citizens thereof, and foreign States,
Citizens or Subjects. In all Cases affecting Ambassadors, other public Ministers and
Consuls, and those in which a State shall be Party, the Supreme Court shall have
original Jurisdiction. In all the other Cases before mentioned, the Supreme Court
shall have appellate Jurisdiction, both as to Law and Fact, with such Exceptions, and
under such Regulations as the Congress shall make.
IX.

STATEMENT OF THE CASE
On January 29, 2018 Deutsche Bank National Tmst Company, as Indenture

Trustee, Plaintiff/Respondent, filed a dispossessory action in Magistrate Court Case
No. 1800416 with regard to 304 Carnoustie, St. Simons Island, Ga. 31522.
On February 5, 2018 Timbes filed her Answer and Motion to Dismiss
Dispossessory Action for Lack of Standing. Also included were Counterclaims
2

against Plaintiff/ Respondent.
On February 15, 2018 Timbes filed Motion to Remove to Superior Court
where the jury trial demanded could be had.
On May 10, 2019 a Notice of Dispossessory Hearing was mailed to Timbes
advising of the Hearing scheduled for May 28, 2018.
On May 20, 2019 Timbes filed her Motion to Stay Proceedings pending a
decision, and any appeals thereof, of Timbes’ February 15, 2018 Motion to Remove
to Superior Court where a jury trial could be had and pending a decision on Motion
to Dismiss Dispossessory Action for Lack of Standing, filed February 5,2018 along
with Timbes’ Answer.
On May 22,2019 the Magistrate Court denied the pending motions, including
the Motion to remove the dispossessory action to Superior Court where a jury trial
could be had.
On May 28, 2019 at 8:34 A.M., prior to the Dispossessory Hearing on May
28,2019, Timbes filed Notice of Appeal from the May 22,2019 denial of her Motion
to Remove to Superior Court, Appendix F.
At the May 28,2019 Hearing, Timbes gave to the Judge the file-stamped copy
of the Notice of Appeal from the May 22,2019 Order and told Judge Harrell that she
had offered a settlement higher than the previously auctioned bid of $385,000,
despite the fact that there is no proof of ownership by Deutsche Bank National Trust
3

Company. The Judge encouraged the Bank to consider Timbes’ $400,000 offer to
avoid going through the appeal process.
Without Notice to Timbes, on June 3, 2018 a Writ of Possession was granted
to Deutsche Bank National Trust Company, ordering Timbes and all others to vacate
the premises by June 13, 2018, Appendix G.
On June 7, 2019 Timbes filed Notice of Appeal from the June 3, 2019 Writ of
Possession in Magistrate Court Case No. 1800416.
On June 14, 2019 the Appeal from Magistrate Court Case No 1800416 was
docketed in Superior Court of Glynn County. Supplement of Appeal from the
Magistrate Court was docketed on June 19, 2019.
On June 25’2019 Timbes filed her Appellant’s Brief and Counterclaim in the
Superior Court, Case No. CE19-00763, and demanded a jury trial.
A hearing was scheduled by the Superior Court; however, Deutsche Bank
National Trust Company, as Indenture Trustee asked for a continuance until there
was a ruling on the summary judgment. The continuance was granted.
On September 19, 2019 Deutsche Bank filed its Motion for Summary
Judgment and Brief in Support of Motion for Summary Judgment; Theory of
Recovery and Statement of Material Facts; Affidavit of Gregory Wallach.
On September 30,2019 Timbes filed her Response in Opposition to Summary
Judgment and Brief in Support of her Response in Opposition; Response in
4

Opposition to Deutsche Bank’s Theory of Recovery and Statement of Material Facts.
On October 17, 2019 Timbes filed a Supplement to her Responses in
Opposition to Summary Judgment and in Opposition to Deutsche Bank’s Theory of
Recovery and Statement of Material Facts; and Affidavit of Pamela M. Timbes,
Appendix H.
On January 14, 2020, without a hearing on the disputed facts, the Honorable
Stephen G. Scarlett, Jr. signed the Order Granting Motion for Summary Judgment,
prepared by Christopher J. Reading, attorney for Appellee, which had been sent by
letter to Judge Scarlett, the Superior Court Judge. Said Order, Appendix E, entitled
Deutsche Bank to evict Pamela Timbes and mled that the Counterclaims are barred
by the doctrines of res judicata and collateral estoppel due to previous adjudication
in the federal court.
On January 21, 2020 Pamela Timbes timely filed within seven (7) days her
Application for Discretionary appeal in the Court of Appeals of Georgia pursuant to
OCGA § 5-6-35(a)(l), out of an abundance of caution because the dispossessory
case was initiated in the Magistrate Court; despite the fact that there had not been a
ruling by two courts due to the void Writ of Possession granted by the Magistrate
Court, App. G, in violation of the supersedeas, App. F, as set forth below.
On February 12,2020 the Court of Appeals of Georgia denied without opinion
or reason Timbes’ Application A20D0280, Appendix D.
5

On September 8,2020 Timbes’ timely filed Petition for Writ of Certiorari, was
denied by the Supreme Court of Georgia, Appendix A. Motion for Reconsideration
was denied on September 28,2020 Appendix B.
Motion to Stay Writ of Possession pending the filing of a Petition for
Certiorari in the U.S. Supreme Court was denied by the Georgia Supreme Court on
September 28, 2020, Appendix C.
X.

REASONS FOR GRANTING THE PETITION
FOR WRIT OF CERTIORARI

1. The Stated Claims for Relief of This Case Arising Directly Under
the Due Process Clause of the Fourteenth Amendment of the United
States Constitution Cannot Be Circumvented by Unconstitutional
Departures from Established Law and Procedures.
As early as Magna Carta, procedural norms were regarded as a valuable means
of protecting the rights of litigants. In America, with the object of preventing an
arbitrary government, procedural safeguards were guaranteed to all persons by the
inclusion of “due process” clauses in the various federal and state constitutions. Few
principles of law, applicable as well to the administrative process, are as fundamental
or well established as “a party is not to suffer...
without an opportunity of being heard.” Painter v. Liverpool Oil Gas Light Co., 11
Eng. Rep. 478, 484, 3 Adm. & Eccl. 433, 448-49 (K.B. 1836). Caritativo v.
California, 357 U.S. 549, 558 (1958) (Frankfurter, J., dissenting); Gorman v.
University ofRhode Island, 837 F.2d 7, 12 (1st Cir. 1988).
6

Timbes has been denied her due process rights under the Fourteenth
Amendment to the U.S. Constitution, as set forth below. It is Timbes’ due process
right to demand equality of application of the law. Our whole system of law is
predicated on that fundamental principle. Truax v. Corrigan, 257 U.S. 312, 331
(1921):
Due process tends to secure equality of law in the sense that it makes a
required minimum of protection for every one’s right of life, liberty, and
property, which the congress or the legislature may not withhold. Our whole
system of law is predicated on the general, fundamental principle of equality
of application of the law. (pp.312,331).
Arbitrary Denial of Appeal is an Offense to
Fourteenth Amendment Due Process.
This Court stated in Lindsey et al. v. Normet et al, 405 U.S. 56,77 (1972),
92 S. Ct. 862:

This Court has recognized that if a full and fair trial on the merits is provided,
the Due Process Clause of the Fourteenth Amendment does not require a State
to provide appellate review, Griffin v. Illinois, 351 U.S. 12,18 (1956); District
of Columbia v. Clawans, 300 U.S. 617, 627 (1937); Ohio v. Akron Park
District, 281 U.S. 74,80 (1930); Reetz v. Michigan, 188 U.S. 505,508 (1903);
McKane v. Durston, 153 U.S. 684, 687-688 (1894), and the continuing
validity of these cases is not at issue here. When an appeal is afforded,
however, it cannot be granted to some litigants and capriciously or arbitrarily
denied to others without violating the Equal Protection Clause. Griffin v.
Illinois, supra; Smith v. Bennett, 365 U.S. 708 (1961); Lane v. Brown, 372
U.S. All (1963); Long v. District Court of Iowa, 385 U.S. 192 (1966);
Gardner v. California, 393 U.S. 367 (1969). Cf. Coppedge v. United States,
369 U.S. 438 (1962); Ellis v. United States, 356 U.S. 674 (1958).

7

Although an Application for Discretionary Appeal under O.C.G.A. § 5-6-35
is by definition discretionary, the Court of Appeals of Georgia abused its discretion
by arbitrarily denying Pamela Timbes’ Application without giving a reason for the
denial. There is no way to determine whether the “decision was reached for an
impermissible reason or for no reason at all.” Dunlop, 421 U.S. at 573,95 S.Ct. 1851
(1975). The arbitrary denial defeats the intention of the Georgia Code.
The Georgia Code has made clear in Title 5, Chapter 6, Sec. 30 (5-6-30):
It is the intention of this article to provide a procedure for taking cases to the
Supreme Court and the Court ofAppeals, as authorized in Article VI, Sections
V and VI of the Constitution of this state; to that end, this article shall be
liberally construed so as to bring about a decision on the merits of every case
appealed and to avoid dismissal of any case or refusal to consider any points
raised therein, except as may be specifically referred to in this
article. [Emphasis Added.].
None of the issues presented in Timbes’ Application was addressed by the Court of
Appeals. Reversible error appears to exist and/or the establishment of precedent
would be desirable; therefore, pursuant to Rule 31(b)(1) and/or Rule 31(b)(2), the
Court of Appeals should have granted Timbes’ Application for Discretionary Appeal.
And the Supreme Court of Georgia should have granted certiorari. Consequently,
Timbes’ Constitutional rights under Article VI, Sections V and VI of the Constitution
of the State of Georgia and her Constitutional rights to due process under the U.S.
Constitution have been violated. But it is not just Timbes’ Constitutional rights
which are at stake here. Because discretionary appeals are routinely, arbitrarily
8

denied without reason5, the discretionary appeal process, itself, must be evaluated
for its constitutionality under the Fourteenth Amendment to the U.S. Constitution.
Furthermore, where a court “makes an error of law,” it “by definition abuses its
discretion.” Koon v. United States, 518 U.S. 81, 100 (1996).
The Court of Appeals of Georgia erred by not granting the Application
because a direct appeal was available under OCGA § 5-6-34(a).
The Court of Appeals of Georgia erred in denying the Application for
Discretionary Appeal from the Superior Court’s Order; said Order having granted
summary judgment which is directly appealable under OCGA § 5-6-34(a)(l); there
having been material fact in dispute; there having been no trial to establish proof of
ownership of the subject property, standing of Appellee or a landlord-tenant
relationship; Timbes’ having been denied her Constitutional right to a jury trial; and
the Counterclaim having not been barred by res judicata due to fraud, inter alia.
Furthermore, the Magistrate Court lacked jurisdiction to grant the Writ of Possession
due to the supersedeas. See Appendix F and Appendix G. If an appellant files an
application for discretionary appeal in a case in which direct appeal is available
under OCGA § 5-6-34(a), Section 5-6-35(j) provides that the appeals court “shall
grant the application,” and the appeal then proceeds as normal. Consequently, the

5
See App. K, Over 100 Orders in the Georgia Court of Appeals, just in 2020, denying
discretionary appeals without reason and using the identical language used in the denial of
Timbes’ discretionary appeal, App. D.

9

Court of Appeals erred in not granting the present Application pursuant to OCGA §
5-6-34(a)(l).
Circumventing a Hearing on the Merits of the Case is an Offense
to Fourteenth Amendment Due Process.
"Due process requires that there be an opportunity to present every available
defense." American Surety Co. v. Baldwin, 287 U.S. 156, 168 (1932). See also
Nickey v. Mississippi, 292 U.S. 393, 396 (1934).
Pamela Timbes has been denied her due process right to a trial on the
issues. And she has a constitutional right to the jury trial she demanded.
In Metro Atlanta Task Force for the Homeless, Inc. v. Premium Funding
Solutions, LLC, 321 Ga App 100 (2013) the Court stated:
The exclusive method whereby a landlord may evict a tenant is through
a properly instituted dispossessory action filed pursuant to OCGA § 44-7-50
et seq.’T The statutory procedures for dispossessing a tenant must be strictly
construed and observed.2 Our review of the trial court’s ruling on a legal
question is “plain legal error. ”3
In this case, the court did not adhere to the requirements of the
dispossessory statute. For instance, the Task Force was entitled to a trial on
the issues, which would include taking the testimony of witnesses orally in
open court (unless otherwise provided),4 [Emphasis added.]
1 Steed v. Fed. Nat. Mtg. Corp., 301 Ga. App. 801, 805 (1) (a) (689
SE2d 843)(2009) (citation omitted); Roberts v. Roberts, 205 Ga. App. 371,
372 (2) (422 SE2d253) (1992).
2 Skelton v. Hill Aircraft & Leasing Corp., 175 Ga. App. 144,145 (333
SE2dl4) (1985).
3 Suarez v. Halbert, 246 Ga. App. 822, 824 (1) (543 SE2d 733) (2000).
4 OCGA §9-11-43.

10

O.C.G.A § 15-10-41 states in subsection (a) that “[tjhere shall be no jury trials
in the magistrate court”, but goes on to describe the manner for an appeal from a
judgment of magistrate court in the subsequent sections, stating at (b)(1) that
“appeals may be had from judgments returned in the magistrate court to the state
court of the county or to the superior court of the county and the same provisions
now provided for by general law for appeals contained in Article 2 of Chapter 3 of
Title 5 shall be applicable to appeals from the magistrate court, the same to be a de
novo appeal. The provisions of said Article 2 of Chapter 3 of Title 5 shall also apply
to appeals to state court” [emphasis added].
O.C.G.A. § 5-3-30 provides:
a) Upon the filing of an appeal from magistrate court to superior court or state
court, the appeal shall be placed upon the court's next calendar for nonjury
trial. Such appeals from the magistrate court to superior court or state court
shall be tried by the superior court or state court without a jury unless either
party files a demand for a jury trial within 30 days of the filing of the appeal
or the court orders a jury trial.
ARTICLE I. SECTION I. PARAGRAPH IX of the Georgia State
Constitution provides as follows:
(a) The right to trial by jury shall remain inviolate, except that the court shall
render judgment without the verdict of a jury in all civil cases where no
issuable defense is filed and where a jury is not demanded in writing by either
party.
"The Georgia Constitution provides for the right of trial by jury in
dispossessory actions." Hill v. Levenson, 259 Ga. 395 (1) (383 S.E.2d 110).
11

Pamela Timbes has been denied her due process right to the jury trial she
timely demanded. She initially asked that the case be removed from the Magistrate
Court to the Superior Court where a jury trial could be had. The Magistrate Court
denied Timbes’ motion for removal. Timbes then filed a notice of appeal from that
Order; despite which the Magistrate Court issued a Writ of Possession in violation
of the supersedeas. See Appendix F and Appendix G. Under OCGA §§ 5-6-45 and
5-6-46 the filing of a notice of appeal in the trial court functions as a supersedeas,
thereby suspending the trial court’s jurisdiction to act with respect to the decision
being appealed. “The supersedeas of a filed application or notice of appeal deprives
the trial court of the power to affect the judgment appealed, so that subsequent
proceedings purporting to supplement, amend, alter or modify the judgment,
whether pursuant to statutory or inherent power, are without effect.” Avren v.
Garten, 289 Ga. 186, 190 (710 SE2d 130) (2011). Consequently, the Magistrate
Court lacked subject-matter jurisdiction to have issued a Writ of Possession after the
notice of appeal was filed.
The Supreme Court of Georgia has long held that judgments, over which the
trial court had no subject-matter jurisdiction, must be reversed; and the U.S.
Supreme Court has held that any such judgments should be vacated at the earliest
opportunity to do so.
Quoting in Abushmais et al. v. Erby, No. S07G0372, October 2007:
12

.... we point out that this holding is in conflict with long-standing statutory
and case law requiring courts to dismiss an action “[w]henever it appears, by
suggestion of the parties or otherwise, that the court lacks jurisdiction of the
subject matter.” OCGA§ 9-11-12(h)(3). “The court's lack of subject-matter
jurisdiction cannot be waived and may be raised at any time either in the trial
court, in a collateral attack on a judgment, or in an appeal. [Cit.]” Ruskell,
Davis and Shulman's Ga. Practice and Procedure § 9:3, p. 464 (2007 ed.).
See Jackson v. Gamble, 232 Ga. 149, 152, 205 S.E.2d 256 (1974) (waiver or
consent to jurisdiction cannot confer jurisdiction over the subject matter).
See also McDaniel v. Selman, 75 Ga. App. 119 (1947), citing Kirkman V. Gillespie,
113 Ga 507 (37 S.E. 714) and Stamey v. Hill, 114 Ga 154 (39 S.E. 949)(1901):
“When a trial court, in a case over which it has, as to subject-matter, no jurisdiction,
renders therein any judgment, except one of dismissal, this Court will reverse the
same...”
This Court has held: Kontrick v. Ryan, 540 U.S. 443,455 (2004). (“Whenever
it appears by suggestion of the parties or otherwise that the court lacks jurisdiction
of the subject matter, the court shall dismiss the action.”). And even for the first
time before the Supreme Court—a party may attack jurisdiction after the entry of
judgment. SeeArbaugh v.Y&HCorp., 546U.S. 500, 514 (2006).
The Writ of Possession issued by the Magistrate Court is void ab initio for
lack of subject-matter jurisdiction; therefore, there had not been a ruling by two
courts due to the void Writ of Possession granted by the Magistrate Court in violation
of the supersedeas. The only Order by a court with jurisdiction to grant possession
to Appellee was that of the Superior Court granting summary judgment, Appendix
13

E, without a trial, despite there having been fact in dispute. Consequently, there
have not been two lower courts who have reviewed this case and the Application for
Discretionary Appeal was unnecessary. Direct appeal from the Order granting
summary judgment is available under OCGA § 5-6-34(a)(l). The Court of Appeals
should have granted the Application and allowed the direct appeal to proceed as
normal, OCGA Section 5-6-35Q.
As set forth above, Timbes has never had a hearing on the issues. A hearing
was initially scheduled by the Superior Court, but was continued at the request of
Deutsche Bank after filing its Motion for Summary Judgment. The trial court judge
signed the Order granting summary judgment prepared by Respondent’s attorney,
who had sent the Order by letter to Judge Scarlett. Consequently, Timbes not only
never received the jury trial to which she is entitled under the Georgia Constitution,
she never even got a hearing where she could call witnesses and present evidence
and where Deutsche Bank would have to present evidence of ownership; all of which
is in violation of the dispossessory statute. See Metro Atlanta Task Force for the
Homeless, Inc. v. Premium Funding Solutions, LLC, 321 Ga App 100 (2013), quoted
supra. As set forth in Timbes’ Affidavit, Appendix H, Timbes has attempted for
years to find out who actually owns her mortgage but Appellee has circumvented the
discovery process for obvious reasons.

14

Material Fact is in Dispute; Therefore, the Trial Court Erred in
Granting Summary Judgment
Summary judgment is proper only if the pleadings and evidence “show that
there is no genuine issue as to any material fact and that the moving party is entitled
to a judgment as a matter of law.” OCGA § 9-11-56 (c). Where the party moving for
summary judgment is the plaintiff, he must make a prima facie showing that no
material issues of fact exist and that he is entitled to judgment as a matter of law
before the burden shifts to the defendant to establish a possible defense. See Sawnee
Forest, LLC v. CRE Venture 2011-1, LLC, 339 Ga. App. 339, 341 (2) (793 SE2d
542) (2016); Smith v. Gordon, 266 Ga. App. 814, 814 (1) (598 SE2d 92) (2004).
“A party opposing a summary judgment motion need not respond and may instead
rely on the movant's failure to remove any fact questions.” Sherman v. Thomas-Lane
American Legion Post 597, 330 Ga. App. 618, 621 (1) (768 SE2d 797) (2015).
Timbes’ Response in Opposition to Summary Judgment, and Response in
Opposition to Plaintiffs Theory of Recovery and Statement of Material Facts, gave
a concise outline of the genuine issues as to material fact which necessitate a trial,
as quoted below:
STATEMENT OF MATERIAL FACTS AS TO WHICH THERE
EXISTS GENUINE ISSUE TO BE TRIED
1. Defendant, Pamela Timbes, contends that she currently owns the Property
located in Glynn County, Georgia.
2. The subject Security Deed, Plaintiffs Exhibit A, does not reference
Deutsche Bank in any capacity.
15

3. The Assignment of the Security Deed, Plaintiffs’ Exhibit B [App. I], to
Deutsche Bank, is a false document6 filed in the Glynn County Records, as
set forth in Appellants’ Brief, and, therefore, void ab initio.
4. The Deed Under Power, Plaintiffs Exhibit C [App. J], is a premise
document based on the false Assignment, and, therefore, also void ab initio.
5. Deutsche Bank has no standing to have demanded possession of the
property due to lack of proof of ownership; proof of which is incumbent upon
Plaintiff.
6. Deutsche Bank is required under Georgia law to prove ownership in order
to obtain a Writ of Possession and has failed to provide any such proof;
therefore, Plaintiff is not entitled to a Writ of Possession. There is no landlordtenant relationship. Timbes is not a tenant at sufferance.

6

The “false document” nature of the Assignment. Exhibit A [Appendix I], includes:
A. Michelle Halyard and Elizabeth Boulton signed as assistant secretary; however, they
are not and never were authorized to execute on behalf of MERS. They were robo signers
employed by LPS.
B. All MERS Assignments of Security Deeds, meaning those purportedly executed by an
officer of MERS have been established as void and invalid:
1) pursuant to established case law;
2) pursuant to the MERS Federal Consent Order Including Cease and Desist Orders; and
3) pursuant to MERS Membership Rules that make it clear that MERS Members cannot execute
such MERS Assignments and must clean the record of such MERS Assignments previously
recorded, which rules were amended to comply with the aforementioned MERS Federal Consent
Order Including Cease and Desist Orders.
C. The Assignment of Security Deed was executed years after the closing of the of
American Home Mortgage Investment Trust 2005-3 in violation of the Trust’s PSA and,
therefore, void ab initio under N.Y. Law. N.Y. Est. Powers & Trusts Law §7-2.4.... Wells
Fargo Bank, N.A. v. Erobobo, et al., 2013 WL1831799 (N.Y.Sup.Ct. April 29, 2013).
Although a borrower generally does not have standing to challenge an Assignment of
Deed to Secure Debt, Defendant, Pamela M. Timbes, has standing to challenge the Assignment
under Georgia law because the Assignment of Security Deed is void ab initio. Furthermore,
“Fraud, accompanied by damage to the party defrauded, always gives a right of action to the
injured party.” O.C.G.A. 51-6-1 (2010).

16

The Trial Court Erred in Not Requiring Proof of the Landlord-Tenant
Relationship before Granting a Writ ofPossession to Deutsche Bank.
Without proof of ownership, or proof of agency relationship with a proven
owner, Deutsche Bank lacks standing under Georgia law to demand possession of
Timbes’ home, 304 Carnoustie, St. Simons Island, GA. Pursuant to OCGA § 44-750, only the owner or its agent may demand possession of property through a
dispossessory action.

Georgia Courts have recognized a fundamental lack of

landlord-tenant relationship as an appropriate defense against a dispossessory
action.7

Proof of the lack of landlord-tenant relationship is the presentation of

fraudulent deeds or other evidence that the Plaintiff does not actually own the
property.8 In the present case, Assignment of security deed, Appendix I, is false
and void on its face and the Deed Under Power, Appendix J, premised on the
validity of the Assignment, is false and void as well; therefore, dispossessory cannot

7
Egana v. HSBC Mortg. Corp., 669 S.E.2d 159, 161 (Ga. Ct. App. 2008). This case
involved an allegedly fraudulent security deed. Id.The Georgia Court of Appeals distinguished
between defendants challenging plaintiff’s ownership of the property—and therefore the
landlord-tenant relationship itself—and defendants claiming defects in the landlord’s title. Id.
This case cited Thomas v. Wells Fargo Credit Corp., 200 Ga.App. 592, 594(3), 409 S.E.2d 71
(1991) which is particularly relevant and quoted below.
8
E.g., Patrick v. Cobb, 49 S.E. 806 (Ga. 1905) (plaintiff allegedly did not present
sufficient evidence to establish the existence of a tenancy); Egana, 669 S.E.2d at 160-61
(allegedly fraudulent security deed); Wilbanks v. Arthur, 570 S.E.2d 664 (Ga. Ct. App. 2002)
(defendant’s mother allegedly acquired title from plaintiff through adverse possession, and
defendant lived on the property with mother’s permission); Sanders v. Hughes, 359 S.E.2d 396
(Ga. Ct. App. 1987) (document between the parties was allegedly a sales contract, not a lease).

17

lie. There is absolutely nothing in the record which proves that Pamela Timbes’
mortgage was ever in the American Home Mortgage Trust 2005-3 or that Deutsche
Bank National Trust Company^ as Indenture Trustee for American Home Mortgage
Investment Trust 2005-3 is the owner of the subject property, or an agent of the
owner, and had standing to dispossess.9 See also Affidavit of Pamela M. Timbes,
Appendix H.
American Home Mortgage Acceptance, Inc. closed in 2007 and has been
defunct since that time. The sole proof on which the bank has relied — a purported
assignment from "MERS as nominee for the lender, its successors and assigns"
is void, because the assignor did not exist when the document was signed and was
fraudulently signed by robo signers who were never agents of MERS. The
Assignment referenced is attached hereto as Appendix I and the Deed Under Power,
premised upon the purported Assignment, is attached as Appendix J. There is
absolutely no proof of ownership in the record. See Affidavit of Pamela Timbes,
Appendix H. Quoting in part from the Affidavit:
8. It is my personal belief, based upon the facts set forth, that I have
been unable to secure a loan modification, and now have had my offer of
$400,000 declined, because Deutsche Bank does not have legal authority to
enter into a contract regarding the subject property. Persisting with the
wrongful foreclosure and wrongful dispossession appears to be the only
9
Note that the present action was brought by Deutsche Bank National Trust Company as
Indenture Trustee, but does not designate trustee for which trust. There is no proof in the record
that Pamela Timbes’ mortgage was ever in the American Home Mortgage Investment Trust
2005-3.

18

option for Deutsche Bank who has failed to prove chain of title back to the
original lender, American Home Mortgage Acceptance, Inc., now defunct.
The sole proof on which the bank has relied — a purported assignment from
"MERS as nominee for the lender, its successors and assigns" — is void,
because the assignor did not exist when the document was signed and was
fraudulently signed by robo signers who were never agents of MERS.
See Memorandum Order Deutsche Bank Nat’l Trust Co. v. Burke, 117F. Supp 3d
953 (2015).10
Deutsche Bank has failed its prima facie showing that no material issues of
fact exist. Nonetheless, with no hearing on the disputed fact, the Superior Court
granted summary judgment. Furthermore, "The Georgia Constitution provides for
the right of trial by jury in dispossessory actions." Hill v. Levenson, 259 Ga. 395 (1)
(383 S.E.2d 110). Pamela Timbes has answered that she is not a tenant at sufferance
and timely demanded a jury trial.
In Thomas v. Wells Fargo Credit Corp., 200 Ga.App. 592, 594(3), 409 S.E.2d
71 (1991) the Court stated:
"The defense of lack of landlord-tenant relationship is a proper defense to a
dispossessory action [and] if the defendant so answers, a trial of the issues
raised shall be had in a civil court of record. OCGA § 44-7-53; Lopez v.
Dlearo, 232 Ga. 339 (206 S.E.2d 454); Lamb v. Sims, 153 Ga.App. 556 (265
S.E.2d 879); see Rucker v. Fuller, 247 Ga. 423 (276 S.E.2d 600)." Bread of
Life Baptist Church v. Price, 194 Ga.App. 693, 694 (392 S.E.2d 15). In the
case sub judice, defendants answered and denied that a landlord-tenant
relationship exists between the parties. Further, there is no evidence or
10

Although this federal case involves property in Texas for which Deutsche Bank failed to
provide chain of title back to the original lender, now defunct, the Texas law cited is similar to
that of Georgia.

19

admission that plaintiff is the owner of the premises or that defendants are on
the premises without the landlord's consent. Consequently, genuine issues of
material fact remain as to plaintiffs allegations that it is the owner of the
premises and that defendants are tenants at sufferance. The trial court erred in
striking defendants' answer, granting a judgment on the pleadings and entering
an immediate writ of possession. See OCGA § 9-11-12 (c) and (f). Defendants
are entitled to a trial of the issues in accordance with procedure prescribed for
civil actions in courts of record. See Crymes v. Crymes, 148 Ga.App. 299 (2)
(251 S.E.2d 155).[Emphasis added.].
4. In their fifth enumeration, defendants contend they are entitled to a jury
trial. We agree. “The Georgia Constitution provides for the right of trial by
jury in dispossessory actions." Hill v. Levenson, 259 Ga. 395 (1) (383 S.E.2d
110).
Clearly Timbes has been denied her due process rights under the Fourteenth
Amendment to the U.S. Consitution. It is Timbes’ due process right to demand
equality of application of the law. Our whole system of law is predicated on that
fundamental principle. Truaxv. Corrigan, 257 U.S. 312, 331 (1921).
ARTICLE I. Section I of the Georgia Constitution provides:
Paragraph I.
Life, liberty, and property. No person shall be deprived of life,
liberty, or property except by due process of law.
Paragraph II.
Protection to person and property; equal protection.
Protection to person and property is the paramount duty of government and
shall be impartial and complete. No person shall be denied the equal
protection of the laws.

20

The Court ofAppeals February 12, 2020 Order in Case No. A20D0280 is
void because Timbes ’ was denied her Constitutional right to due process.
While the phrase “void for any other cause” does not appear to be specifically
defined under O.C.G.A. § 9-12-16, Georgia courts have recognized that the denial
of a due process right may result in a void judgment. See McBurrough v. Dept, of
Human Resources, 150 Ga. App. 130, 131 (3) (257 SE2d 35) (1979).
Where Due Process is denied, the case is void, Johnson v. Zerbst, 304 U.S.
458 S Ct.1019 (1938). See also Sabariego v Maverick, 124 US 261, 31 L Ed 430, 8
SCt 461 (1888).
‘Defendants who have been treated with unfairness, bias and the appearance
of prejudice by this Court, and the opposing counsel, leaves open the question of
how an uninterested, lay person, would question the partiality and neutrality of this
Court.“.. .our system of law has always endeavored to prevent even the probability
of unfairness.” In re Murchinson, 349 U.S. 133, 136 (1955).
“This court had a duty to ensure fairness. This Court failed, or refused to ensure
that fairness.” Marshall v. Jerrico, 100 S. Ct. 1610, 446 U.S. 238.
The establishment of precedent would be desirable with regard to whether
O.C.G.A. § 44-14-162 (b) “could ever provide a debtor with standing to challenge
a foreclosure based on an unrecorded or facially invalid assignment ”
In Ames v. JP Morgan Chase Bank, N.A., 783 S.E. 2d 614 (Ga. 2016) the
Georgia Supreme Court actually left open the distinct possibility of a challenge to a
facially invalid Assignment under §44-14- 162(b):
21

[Footnote] 7 The legislature has indicated its desire to ensure that only the
record holders of deeds initiate foreclosure proceedings. OCGA § 44-14-162
(b) requires that “[t]he security instrument or assignment thereof vesting the
secured creditor with title to the security instrument shall be filed prior to the
time of sale in the office of the clerk of the superior court of the county in
which the real property is located,” and the stated legislative purpose of this
provision is to “require a foreclosure to be conducted bv the current owner or
holder of the mortgage, as reflected bv public records.” Ga. L. 2008. p. 624.
$ 1. Because Chase recorded its assignment as required and the Ameses have
not brought a distinct challenge under this statute, we need not decide whether
§ 44-14-162 (b) could ever provide a debtor with standing to challenge a
foreclosure based on an unrecorded or facially invalid assignment. [Emphasis
added.]
Although affirming the dismissal of the Amended Complaint in federal
District Court, 2:16-cv-00031, the Eleventh Circuit Court on September 6, 2017, in
Appeal No. 17-10556, acknowledged the discrepancy between federal law and
Georgia law with regard to the issue raised in the present Counterclaim: Timbes’
standing to challenge the Assignment of the security deed, Appendix I. Quoting
from the Eleventh Circuit September 6, 2017 Order:
Turning to Timbes’s challenge to the validity of the assignment, we agree the
district court that she lacks standing to contest the assignment. [Order at p. 7].
Timbes points out that Georgia courts have not gone quite so far as Haynes.
In Ames, the Supreme Court of Georgia adopted the general rule that a
borrower lacks standing to challenge an assignment of his or her security deed.
783 S.E.2d at 619-20. But the Court left open the possibility that a debtor
could have standing to challenge the validity of an assignment indirectly, if
the invalid assignment violated a statutory protection and thereby injured the
debtor. Id. At 621. One question left unresolved by Ames is whether O.C.G. A.
§ 44-14-162 (b) “could ever provide a debtor with standing to challenge a
foreclosure based on an unrecorded or facially invalid assignment.” Id. At 622
n.7. Section§ 44-14-162 (b) “requir[es]foreclosures to be conducted by the
current owner of the mortgage, as shown by public records.” Duke Galish
22

LLC v. SouthCrest Bank, 726 S.E.2d 54,56 (Ga. Ct. App. 2012). Thus, Ames
left open a possibility—that a debtor could have standing to challenge an
unrecorded or facially invalid assignment under § 44-14-162 (b)—that
Haynes appears to foreclose. Compare Ames, 783 S.E.2d at 622 n.7 (noting
Haynes), with Haynes, 793 F.3d at 1252-53. [Order at p. 9].
Lewis v. Manufacturers National Bank of Detroit, 364 U.S. 603, 81 S.Ct. 347, 5
L.Ed.2d 323 (1961), settled the question of whether state law applies in bankruptcy
court to allocate priorities among creditors. As the Bankruptcy Judge stated:
* * *

Generally, a secured creditor is entitled to reclaim from the estate of a
Bankrupt, or to foreclose against his security interest in, any property in
possession of the Bankrupt or Trustee if the value of the security does not
substantially exceed the debt to the particular creditor. To eniov this right, the
secured creditor must have, prior to the filing of the Bankruptcy, perfected his
security interest in accordance with the law of the State which is to be applied
by the Bankruptcy Court in its consideration of the issues. [Emphasis added.].
Respondent had no such perfected lien pre-petition; nor, to this date, has a valid
assignment been filed under OCGA § 44-14-162 (b) in order to proceed to
foreclosure. The establishment of precedent would be desirable with regard to
whether O.C.G.A. § 44-14-162 (b) “could ever provide a debtor with standing to
challenge a foreclosure based on an unrecorded or facially invalid assignment.”
Ames, 783 S.E.2d at 622 n.7. Consequently, the Court of Appeals erred in not
granting Timbes’ Application for Discretionary Appeal which would have allowed
appeal of the Counterclaim. Inter alia, the Counterclaim cannot be barred under the
doctrine of Res Judicata, due to the fraud upon the court, as set forth below.
23

The federal court dismissed the issues and then the Georgia Court of Appeals
ignored these and other issues without opinion. The Georgia Supreme Court has
denied certiorari. Consequently, the issues in the Counterclaim have also been
circumvented and Pamela Timbes’ right to due process has been denied.
Pro Se Litigants Have a Constitutional Right to Have Their Claims
Adjudicated and to Submit Evidence in Support of Their Claims.
Pro se litigants are afforded certain rights under authority of the supremacy
and equal protection clauses of the United States Constitution and the common law
authorities of Haines v Kemer, 404 U.S. 519(1972), )Platsky v. C.I.A. 953 F.2d. 26
(2d Cir. 1991, and Anastasojf v. United States, 223 F.3d 898 (8th Cir. 2000) relying
on Willy v. Coastal Corp., 503 U.S. 131, 135 (1992), “United States v. International
Business Machines Corp., 517 U.S. 843, 856 (1996), quoting Payne v. Tennessee,
501 U.S. 808, 842 (1991) (Souter, J., concurring).
In re Haines: pro se litigants are held to less stringent pleading standards than
BAR registered attorneys. Regardless of the deficiencies in their pleadings, pro se
litigants are entitled to the opportunity to submit evidence in support of their claims.
In re Platsky: court erred when court dismissed the pro se litigant without
instruction of how pleadings are deficient and how to repair pleadings.
In re Anastasojf: litigants’ constitutional rights are violated when courts
depart from precedent where parties are similarly situated. All litigants have a
constitutional right to have their claims adjudicated according the rule of precedent.
See Anastasojf v. United States, 223 F.3d 898 (8th Cir. 2000).
Pamela Timbes, pro se, has stated claims upon which relief can be granted.

24

Even if the pleading is deficient in some way, she should be given the opportunity
to correct the pleading. The pleading should be construed to include any exhibits
attached to the Counterclaim. See Gold Creek SL v. City of Dawsonville, 290 Ga.
App. 807, 809 (660S.E.2d 858) (2008). Furthermore, Pamela Timbes should be
afforded her Constitutional right to a trial by jury, including her right to discovery to
further prove her claims of fraud.
Claims cannot be barred where fraud was involved; and new evidence should
be allowed in the advancement of truth. Brown v. Felsen, 442 U.S. 127, 132 (1979).

2.

Lack

of Article III Standing of Respondent to Demand
Possession of the Subject Property, to Move for Summary Judgment and
to Move to Dismiss the Counterclaim.

It is clearly established law that standing has both constitutional and
prudential (i.e. self-imposed) requirements. The real party in interest question is
really the prudential component of the overall standing analysis, while injury-in-fact
is a constitutional requirement. Both requirements must be met before a court can
grant relief. In addition, a party also has standing to seek relief if it has the authority
to act on behalf of an entity that has standing. Therefore, a nominee or agent will
have to prove both (1) that it is an agent with the authority to act on behalf of the
principal and (2) that the principal has both constitutional standing and prudential
standing. The standing requirement is “an essential and unchanging part of the case25

or controversy requirement of Article III.” Lujan v. Defenders of Wildlife, 504 US
555, 560(1992). This constitutional doctrine requires that a claimant must present
an actual or imminent injury that is fairly traceable to the opposing party’s conduct
and redressable by a favorable ruling. Davis v. Fed. Election Comm ’n, 544 U.S. 724
(2008). The standing question is a threshold issue, required before a court may
entertain a suit. Warth v. Seldin, 422 U.S. 490, 495 (1975). Thus, if a lender cannot
establish standing, the court has no authority to hear its motion for relief and it must
deny the motion. Prudential requirements also require that a party bringing a motion
be the real party in interest. The purpose is to ensure the party bringing forth the
action is the party who “possesses the substantive right being asserted under the
applicable law.” Bennett v. Spear, 520 U.S. 154, 162 (1997). The real party in
interest inquiry is one of the prudential considerations the judiciary self-imposes to
limit the role of courts in democratic society.
An alleging creditor must prove ownership to establish a real party in interest
with standing to proceed to dispossession under Georgia law.
It is well established that in a civil action the plaintiff has the burden of proof.
Anderson v. Poythressj246 Ga. 435)(271 SE2d 834)(1980), citing Kimsey v. Rogers,
166 Ga. 176 (142 SE 667) (1928).
“The exclusive method whereby a landlord may evict a tenant is through a
properly instituted dispossessory action filed pursuant to OCGA§ 44-7-50 et seq.”
26

Steed v. Fed. Nat. Mtg. Corp., 301 Ga. App. 801, 805(1 )(a)(689 SE2d843) (2009);
Roberts v. Roberts, 205 Ga. App. 371, 372 (2) (422 SE2d253) (1992).
The statutory procedures for dispossessing a tenant must be strictly construed
and observed. Skelton v. Hill Aricraft & Leasing Corp., 175 Ga. App. 144, 145 (333
SE2dl4) (1985).
Pursuant to OCGA § 44-7-50, only the owner or its agent may demand
possession of property through a dispossessory action. O.C.G.A. 44-7-50 (2010).
Only the owner of the subject property at 304 Carnoustie, St. Simons Island,
GA can demand possession of said property. A landlord-tenant relationship must
exist between a legal title holder and a tenant at sufferance such that the
dispossessory procedures set forth in OCGA § 44-7-50 et seq. are applicable. See
Frank v. Fleet Finance Inc. of Ga., 227 Ga.App. 543, 547(l)(c), 489 S.E.2d 523
(1997); Cloud v. Ga. Central Credit Union, 214 Ga.App. 594, 598(8), 448 S.E.2d
913 (1994); Stevens v. Way, 167 Ga.App. 688, 690(5), 307 S.E.2d 507 (1983). A
landlord-tenant relationship must exist before a dispossessory action will lie, see
Stevens, supra.; Crain v. Daniel, 79 Ga.App. 647, 651-652(3), 54 S.E.2d 487(1949).
Plaintiff, Deutsche Bank National Trust Company, as Indenture Trustee, has
no proven ownership of the subject property or agency relationship with the owner;
proof of which is incumbent upon Deutsche Bank National Trust Company and
required under Georgia law to demand possession of the subject property. See OCGA
27

§ 44-7-50; Metro Atlanta Task Force for the Homeless, Inc. v. Premium Solutions,
LLC, 321 Ga App 100 (2013); Steed v. Fed. Nat. Mtg. Corp., 301 Ga. App. 801, 805
(1) (a) (689 SE2d 843)(2009); Roberts v. Roberts, 205 Ga. App. 371, 372 (2) (422
SE2d253) (1992).
As set forth above, Georgia Courts have recognized a fundamental lack of
landlord-tenant relationship as an appropriate defense against a dispossessory action.
In Thomas v. Wells Fargo Credit Corp., 200 Ga.App. 592, 594(3), 409 S.E.2d 71
(1991), supra. Proof of the lack of landlord-tenant relationship is the presentation of
fraudulent deeds or other evidence that the Plaintiff does not actually own the
property. In the present case, Assignment of security deed, App. I, is false and void
on its face and the Deed Under Power, App. J, premised on the validity of the
Assignment, is false and void as well; therefore, dispossessory cannot lie. “The
exclusive method whereby a landlord may evict a tenant is through a properly
instituted dispossessory action filed pursuant to OCGA § 44-7-50 et seq.” In Metro
Atlanta Task Force for the Homeless, Inc. v. Premium Funding Solutions, LLC, 321
Ga App 100 (2013), supra. Furthermore, "The Georgia Constitution provides for the
right of trial by jury in dispossessory actions." Hill v. Levenson, 259 Ga. 395 (1) (383
S.E.2d 110).
Although a borrower generally does not have standing to challenge an
Assignment of Deed to Secure Debt, Defendant, Pamela M. Timbes, has standing to
28

challenge the Assignment under Georgia law because the Assignment of Security
Deed is void ab initio. See note 6 above. Furthermore, “Fraud, accompanied by
damage to the party defrauded, always gives a right of action to the injured party.”
O.C.G.A. 51-6-1 (2010).
The Counterclaim Cannot be Barred by Res Judicata
and/or Collateral Estoppel.
On January 5, 2016 Plaintiff, Deutsche Bank National Trust Company, as
Indenture Trustee for American Home Mortgage Investment Trust 2005-3,
wrongfully foreclosed on Pamela M. Timbes’ home at 304 Carnoustie, St. Simons
Island, GA 31522 in violation of O.C.G.A. § 44-14-162(b) which requires that a
valid Assignment of Deed to Secure Debt had to be filed prior to the foreclosure sale.
The fraudulent and void Assignment, App. I, was utilized to foreclose on the subject
property. The Deed Under Power, App. J, depended upon the premise that the
Assignment of Deed to Secure Debt was a true and valid document. This premise
document is, therefore, a false document and cannot be used as proof of ownership.
Respondent Committed Documented Fraud upon the Court.
“Fraud, accompanied by damage to the party defrauded, always gives a right
of action to the injured party.” O.C.G.A. 51-6-1 (2010). The Assignment of Deed to
Secure Debt was the fabrication of Lender Processing Services (LPS). LPS is a
known document fabricator and the Assignment was signed by known robo

29

signers.11 See also American Home Mortgage Servicing, Inc. v. Lender Processing
Services, Inc., 11-10440, District Court of Dallas County, TX, 2011. Petitioner’s
Complaint, August, 2011: American Home Mortgage sued LPS for robo signing and
violation of the Trust’s PSA. American Home Mortgage admitted that assignments
were done illegally by unauthorized parties; that filings were not done in compliance
with the PSA; and that LPS had caused American Home Mortgage Servicing Inc.
potential liability.
This Court has held that if a party has used fraud to obtain a judgment, the
party should be deprived of the benefit of the judgment. Marshall v. Holmes, 141
U.S. 589 at 599 (1891), quoting Johnson v. Waters, 111 U.S. 640,667,28 L. Ed. 547,
4 S. Ct. 619 (1884). See Chambers v. NASCO, Inc., 501 U.S. 32, 44(1991):
See Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238 (1944);
Universal Oil Products Co. v. Root Refining Co., 328 U.S. 575, 580 (1946).
This "historic power of equity to set aside fraudulently begotten judgments,"
Hazel-Atlas, 322 U. S., at 245, is necessary to the integrity of the courts, for
"tampering with the administration of justice in Tthisl manner... involves far
more than an injury to a single litigant. It is a wrong against the institutions
set up to protect and safeguard the public." Id., at 246. [Emphasis added.].

11
The Assignment of Security Deed recorded December 2, 2010 (App. I) was prepared by
Lender Processing Services (LPS). LPS is a known document fabricator for lenders and law
firms. Michelle Halyard and Elizabeth Boulton signed as assistant secretary; they were
employees of LPS with no authority. American Home Mortgage filed a lawsuit against LPS for
robo signing. The FDIC also filed suit against LPS for other frauds.

30

Violations of the Georgia RICO Act
Respondent has violated one or more of the Georgia RICO statutes listed
below.
135. Georgia defines Mortgage Fraud as when a person “[k]nowingly
makes a deliberate misstatement, misrepresentation, or omission during the
mortgage lending process with the intention that [the false information] be
relied on by a mortgage lender, borrower, or any other party to the mortgage
lending process [including negotiation and servicing].”12
136. Further, a violation of the statute occurs when a person uses or
facilitates the use of such false information with the intent that the false
information be used by anyone during the mortgage lending process.13
137. Violation of the statute occurs when any written instrument that
contains a deliberate misstatement, misrepresentation, or omission is recorded
in the real estate records of any Georgia county.14
Attorneys and others who take part in the mortgage lending process are subject
to separate prosecution for conspiracy,15 should the party conspire with others to
violate the statute.16
Aldridge Pite LLP, Attorney for the Respondent in the dispossessory action,
is a high-volume foreclosure mill who has a history of fraudulent activity.17

12

O.C.G.A.§ 16-8-102(1).

13

O.C.G.A.§ 16-8-102(2).

14

O.C.G.A.§ 16-8-102(5).

15

O.C.G.A.§ 16-4-8 (2003).

16

O.C.G.A.§16-8-102(4).

17

Aldgridge Pite LLP utilized documents prepared by the now-notorious fraudulent, robosigning affidavit mill Lender Processing Services, “LPS” (f/k/a as Fidelity National Foreclosure
Solutions and several other names) out of Mendota Heights, MN and Jacksonville, FL. The
Assignment of Security Deed recorded December 2, 2010 (App. I) was prepared by LPS. Lender

31

The Related Federal Court Action Cannot Bar the Present Action.
Pamela Timbes brought a wrongful foreclosure lawsuit, “Related Action”, in
Superior Court, No. CE16-00001-063, which was then removed to federal court.
Timbes contended that under the Rooker Feldman doctrine and/or Younger doctrine,
the federal court lacked jurisdiction and the related action should have been
remanded to the Superior Court of Glynn County. However, the related wrongful
foreclosure complaint was dismissed for failure to state a claim. The ruling in the
federal court with regard to the Related Action cannot be construed to bar the
Counterclaim in the present action. Quoting the Court in Heath v. Alabama, 474
U.S. 82, 89(1985):
Thus, the Court has uniformly held that the States are separate sovereigns with
respect to the Federal Government because each State's power to prosecute is
derived from its own "inherent sovereignty," not from the Federal Government.
Wheeler, supra, at 320, n. 14. See Abbate v. United States, 359 U.S. 187, 193 194 (1959) (collecting cases); Lanza, supra...... If the States are separate
sovereigns, as they must be under the definition of sovereignty which the Court
consistently has employed, the circumstances of the case are irrelevant.
Consequently, the claims in the Counterclaim must be adjudicated under Georgia
law without regard to the ruling of the federal District Court. Therefore, the claims
in the Counterclaim cannot be barred by res judicata or collateral estoppel, even if

Processing Services, LPS, is a known document fabricator for lenders and law firms. Michelle
Halyard and Elizabeth Boulton signed as assistant secretary; they were employees of LPS with
no authority. American Home Mortgage filed a lawsuit against LPS for robo signing. The FDIC
also filed suit against LPS for other frauds.

32

related.
Although affirming the dismissal of the Amended Complaint in federal
District Court, 2:16-cv-00031, the Eleventh Circuit Court on September 6, 2017, in
Appeal No. 17-10556, acknowledged the discrepancy between federal law and
Georgia law with regard to the issue raised in the present Counterclaim: Timbes’
standing to challenge the Assignment of the security deed. See the Eleventh Circuit
September 6, 2017 Order quoted above at page 22.
Lewis v. Manufacturers National Bank ofDetroit, 364 U.S. 603, 81 S.Ct. 347,
5 L.Ed.2d 323 (1961), settled the question of whether state law applies in bankruptcy
court to allocate priorities among creditors. As the Bankruptcy Judge stated:
* * *

Generally, a secured creditor is entitled to reclaim from the estate of a
Bankrupt, or to foreclose against his security interest in, any property in
possession of the Bankrupt or Trustee if the value of the security does not
substantially exceed the debt to the particular creditor. To eniov this right, the
secured creditor must have, prior to the filing of the Bankruptcy, perfected his
security interest in accordance with the law of the State which is to be applied
bv the Bankruptcy Court in its consideration of the issues. [Emphasis added.].
Respondent had no such perfected lien pre-petition; nor, to this date, has a valid
assignment been filed under OCGA § 44-14-162 (b) in order to proceed to
foreclosure.

33

Res Judicata Cannot be Applied to the Counterclaim, Because the
Federal Courts Lacked Jurisdiction.
Under Georgia law for res judicata to apply there must have been a judgment
of a court of competent jurisdiction. Neely v. City ofRiverdale, 298 Ga. App. 884,
86 (2009).
Without proof of standing of the alleging creditor, the federal courts lacked
subject-matter jurisdiction. There is absolutely no proof in the record in the federal
court or in the state court that Deutsche Bank is a real party in interest with standing
to have proceeded to foreclosure or to dispossession. There has been no trial on the
disputed material fact in any court; therefore, the federal District Court had no
jurisdiction to dismiss the Amended Complaint on summary judgment. The federal
District Court concluded that Timbes lacked standing to challenge the Assignment
of Deed to Secure Debt. However, such is not the case under Georgia Law.
Nonetheless, it is Plaintiff/Respondent’s burden of proof of standing to proceed to
foreclosure and to dispossession.
Article III of the United States Constitution limits the jurisdiction of all federal
courts to "cases and controversies". A person with no ownership interest has no
constitutional standing because a non-owner cannot establish “injury in fact”
traceable to the acts of the opposing party. Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (1992). When standing is absent, a district court lacks subject- matter

34

jurisdiction over the plaintiffs claim. See D’Lil v. Best Western Encina Lodge &
Suites, 538 F.3d 1031,1036 (9th Cir. 2008) (a party invoking federal jurisdiction has
the burden of establishing that it has satisfied the ‘case-or-controversy’ requirement
of Article III of the Constitution; standing is a ‘core component’ of that
requirement.”) (internal citations omitted); Medina v. Clinton, 86 F.3d 155,157 (9th
Cir. 1996) (linking Article III standing with subject-matter jurisdiction of federal
courts). And a federal court cannot hypothesize subject- matter jurisdiction for the
purpose of deciding the merits. Ruhrgas A.G. v. Marathon Oil, 526 U.S. 574 (1999).
The constitutional limitations on federal jurisdiction make federal courts “courts of
limited jurisdiction,” Owen Equip. & Erection Co. v. Kroger, 437 U.S. 365, 374
(1978) (jurisdiction lacking), as opposed to state courts, which are generally
presumed to have subject-matter jurisdiction over a case.
A federal court is presumed to lack subject-matter jurisdiction and the party
invoking federal jurisdiction bears the burden of persuasion on jurisdiction. “It is to
be presumed that a cause lies outside [of federal courts’] limited jurisdiction, and the
burden of establishing the contrary rests upon the party asserting jurisdiction.”
Kokkonen v. Guardian Life Ins. Co. ofAm., 511 U.S. 375, 377 (1994); McNutt v.
Gen. Motors Acceptance Corp. oflnd., Inc., 298 U.S. 178,189 (1936) (“The burden
of proving all jurisdictional facts is on the party asserting jurisdiction.”).

35

The principles of waiver, consent, and estoppel do not apply to jurisdictional
issues—the actions of the litigants cannot vest a district court with jurisdiction above
the limitations provided by the Constitution and Congress. In Insurance Corp. of
Ireland v. Compagnie des Bauxites de Guinee, 456 U.S. 694 (1982).
A federal court has the obligation to determine jurisdiction on its own even if
the parties do not raise the issue. All courts have an “independent obligation to
determine whether subject-matter jurisdiction exists, even in the absence of a
challenge from any party.” Arbaugh v.Y&H Corp., 546 U. S. 500,514 (2006) (citing
Ruhgras AG v. Marathon Oil Co., 526 U.S. 574, 583 (1999) (“Even if the parties
remain silent, a federal court, whether trial or appellate, is obliged to notice on its
own motion its lack of subject-matter jurisdiction, or the lower court’s lack of
subject-matter jurisdiction when a case is on appeal.”).
A litigant or the court can raise a defect in jurisdiction at any time, even after
a court has entered judgment and even on appeal. Federal Rule 12(h)(3) states that,
“[i]f the court determines at any time that it lacks subject-matter jurisdiction, the
court must dismiss the action.” Fed. R. Civ. P. 12(h)(3).
The objection that a federal court lacks subject-matter jurisdiction may be raised by
a party, or by a court on its own initiative, at any stage in the litigation, even after
trial and the entry of judgment.” Arbaugh v.Y&H Corp., 546 U.S. 500, 506 (2006)

36

(citations omitted); Kontrick v. Ryan, 540 U.S. 443, 455 (2004). (“Whenever it
appears by suggestion of the parties or otherwise that the court lacks jurisdiction of
the subject matter, the court shall dismiss the action.”). And even for the first time
before the Supreme Court—a party may attack jurisdiction after the entry of
judgment in the district court. See Arbaugh v. Y & H Corp., 546 U.S. 500, 514
(2006).
It is clearly established law that a final judgment is void “if the court that
rendered it lacked jurisdiction of the subject matter, or of the parties, or if it acted in
a manner inconsistent with due process of law.” Rice v. Ford Motor Co., 88 F.3d
914, 918 n. 7 (11th Cir. 1996). Accord, Watts v Pinkney, 752 F.2d 406,409(9th Cir.
1995). When a judgment is void the court has a non-discretionary duty to grant
relief. See also, Thomas P. Gonzales Corp v Consejo Nacional de Costa Rica, 614
F. 2d 1247, 1256(9th Cir. 1980), Tomlin v McDaniel, 865 F.2d 209, 210(9th Cir.
1987); In re Edwards, 962 F.2d 641, 644 (7th Cir. 1992). All courts have a duty to
vacate void orders. Jordon v. Gilligan, 500 F.2d 701, 704 (6th Cir. 1974) ("A void
judgment is a legal nullity and a court considering a motion to vacate has no
discretion in determining whether it should be set aside."); Watts v. Pinckney, 752
F.2d 406, 409 (9th Cir. 1985); Textile Banking Company, Inc. v. Rentschler, 657
F.2d 844, 850 (7th Cir. 1981) ("If the underlying judgment is void because the court
lacked personal or subject matter jurisdiction or because the entry of the order
37

violated the due process rights of the respondent, the trial judge has no discretion
and must grant appropriate relief.").
In Oldfieldv. Pueblo De Bahia Lora, ,S.;4.,558F.3d 1210,1217-1218 (llthCir. 2009)
the Court held that a district court’s failure to vacate a void judgment is per se an
abuse of discretion,
“A void judgment [or order] is, in legal effect, no judgment. By it no rights
are divested. From it no rights can be obtained. Being worthless in itself, all
proceedings founded upon it are equally worthless. It neither binds nor bars any
one.” Bennett v. Wilson , 122 Cal. 509, 513-514(1898).
It is well-settled law that there is a presumption against subject-matter
jurisdiction in courts of limited jurisdiction, including courts of statutory
jurisdiction. The bankruptcy court is a court of limited jurisdiction. Appellate
Courts are also courts of limited jurisdiction; therefore, there is a presumption
against subject-matter jurisdiction in Appellate Court proceedings.
In the present case with regard to the Counterclaim, the threshold condition
of claim preclusion was not met: (1) because the federal courts lacked subject-matter
jurisdiction over the Amended Complaint and (2) because Timbes, having objected
to standing of the alleging creditor, was denied due process by the courts’ placing
proof of the lack of standing and subject-matter jurisdiction upon Timbes, instead of
requiring the alleging creditor to prove standing.
38

New evidence of fraud upon the court cannot be precluded under the law of
the case doctrine when different evidence is produced or when a prior decision would
result in “manifest injustice”. Newman v. Ormond, 456 F. App’x 866,867 (11th Cir.
2012).
Under Georgia law “Fraud, accompanied by damage to the party defrauded,
always gives a right of action to the injured party.” O.C.G.A. 51-6-1 (2010).
Regardless of the dispossessory action, Timbes’ Counterclaim should have
proceeded to jury trial. Long v. Greenwood Homes, 285 Ga. 560, 562, 679 S.E.2d
712 (2009).
An Appropriate Disposition in This Case would be to Remand to the
Supreme Court of Georgia for Further Consideration.
This Court has stated that its authority arises under the very broad grant of 28
U.S.C. § 2106, which allows:
[t]he Supreme Court or any other court of appellate jurisdiction [to] affirm,
modify, vacate, set aside or reverse any judgment, decree, or order of a court
lawfully brought before it for review, and [to] remand the cause and direct the
entry of such appropriate judgment, decree, or order, or require such further
proceedings to be had as may be just under the circumstances.18
As set forth above, the federal court dismissed the standing issue of the
alleging creditor and fraud upon the court, because Timbes lacked standing to
challenge the fraudulent assignment. Then, the state court circumvented Timbes’

18

28 U.S.C. § 2106 (2007).

39

right to a trial on the issues; and the appeals court arbitrarily denied Timbes’ appeal
without opinion or reason.

Because Timbes has been denied a full and fair

opportunity to assert claims and defenses resulting in violation of her due process
rights, remand would be an appropriate disposition in this case.

XL

CONCLUSION
This Honorable Court should grant certiorari to evaluate the Discretionary

Appeal Process under O.C.G.A. § 5-6-35, which has allowed routine, arbitrary
denial of appeal without reason in apparent violation of the Fourteenth Amendment
to the United States Constitution and the Georgia Constitution.
In the alternative, the Court should remand to the Georgia Supreme Court for
further consideration; Petitioner, Timbes, having been deprived of her property
without due process of law and having been denied equal protection of the laws, in
violation of the Fourteenth Amendment to the United States Constitution, Section 1;
and there having been no proof of Article III standing of the alleging creditor,
Respondent, Deutsche Bank National Trust Company, as Indenture Trustee, to have
demanded possession of Timbes’ home, to have moved for summary judgment, or
to have moved to dismiss the Counterclaim.

40

Respectfully submitted this 23rd day of February, 2021.

Pamela M. Timbes
304 Carnoustie
St. Simons Is., GA 31522
912-222-6773
ptimbes@gmail.com
PRO SE PETITIONER

41

CERTIFICATE OF SERVICE

I hereby certify that I have this day served the following parties with
Petition for Writ of Certiorari:
Dallas R. Ivey
Christopher Reading
3575 Piedmont Road NE
Fifteen Piedmont Center, Suite 500
Atlanta, Georgia 30305
By UPS with sufficient postage affixed thereon to assure delivery.

Respectfully submitted this 23rd day of February, 2021.

Pamela M. Timbes
304 Carnoustie
St. Simons Is., GA 31522
912-222-6773
ptimbes@gmail.com
PRO SE PETITIONER

42

Respectfully resubmitted this 26th day of April, 2021.
Ha.

Pamela M. Timbes
304 Carnoustie
St. Simons Is., GA 31522
912-222-6773
ptimbes@gmail.com
PRO SE PETITIONER

43

